No. 20-219
IN THE

JANE CUMMINGS,
Petitioner,
v.
PREMIER REHAB KELLER, P.L.L.C.,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
CERTIFICATE OF SERVICE
The undersigned certifies that he has this 8th day of July 2021, caused
one copy of the foregoing Joint Motion for Extension of Time to be served
on the below-named counsel by first-class mail, postage prepaid, and further
certifies that all persons required to be served have been served:
Brian Scott Bradley
WATSON, CARAWAY, MIDKIFF &
LUNINGHAM, LLP
200 Fort Worth Club Building
306 W. 7th Street
Fort Worth, TX 76102
Email: sbradley@watsoncaraway.com
Telephone: (817) 870-1717
Facsimile: (817) 338-4842

Andrew Rozynski
Counsel for Petitioner

